HHS/OIG-Audit--"Financial Audit of the Food and Drug Administration's Revolving Fund for Certification and Other Services, (A-15-93-00007)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Financial Audit of the Food and Drug Administration's Revolving Fund
for Certification and Other Services," (A-15-93-00007)
August 27, 1993
Complete Text of Report is available in PDF format
(3.35 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report prepared by KPMG Peat Marwick (KPMG), independent public
accountants, under contract with the Office of Inspector General indicates opportunity
for improving financial management at the Food and Drug Administration (FDA).
The Chief Financial Officers Act requires that the audit report be prepared
in accordance with Government Auditing Standards and the Office of Management
and Budget's Bulletin 93-06, Audit Requirements for Federal Financial Statements.
The KPMG's auditors expressed an unqualified opinion on FDA's Revolving Fund
for Certification and Other Services' (Fund) financial statements but found
problems with internal controls and compliance with laws and regulations in
the areas of input and processing controls, overhead allocation, and proprietary
and budgetary account balancing. They also found that while some prior year
problems were resolved, other problems found in the previous year's audit have
not been fully resolved.